APPENDIX A

COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION ONE

San Diego County Superior Court - Main
P.O. Box 120128
San Diego, CA 92112

RE:

EDUARDO FLORES,
Plaintiff and Appellant,
v.
PETER M. HOAGLAND et al.,
Defendants and Respondents;
THE SUPERIOR COURT OF SAN DIEGO COUNTY,
Respondent.
D075480
San Diego County Super. Ct. No. 37-2017-00033989-CU-MM-CTL

* it -k

REMITTITUR *

* *

I, Kevin J. Lane, Clerk of the Court of Appeal of the State of California, for the Fourth
Appellate District, certify the attached is a true and correct copy of the original opinion or
decision entered in the above-entitled case on September 30, 2020, and that this opinion or
decision has now become final.
____Appellant _____ Respondent to recover costs.
____Each party to bear own costs.
\/ Other (See Below)
Respondents shall recover their costs on appeal.
Witness my hand and the seal of the Court affixed this January 25, 2021
KEVIN J. LANE, Clerk
By: Alissa Galvez, Deputy Clerk
cc: All Parties (Copy of remittitur only, Cal. Rules of Court, rule 8.272(d).)

13
£

Filed 9/30/20

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
purposes of rule 8.1115.

_______________________________________________________

COURT OF APPEAL, FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA

EDUARDO FLORES,

D075480

Plaintiff and Appellant,
v.

(Super. Ct. No. 37-201700033989-CU-MM-CTL)

PETER M. HOAGLAND et al,
Defendants and Respondents;
THE SUPERIOR COURT OF SAN
DIEGO COUNTY,
Respondent.
APPEAL from an order of the Superior Court of San Diego County,
Joel R. Wohlfeil, Judge. Affirmed.
Eduardo Flores, in pro. per. for Plaintiff and Appellant.
Davis, Grass, Goldstein & Finlay and Jeffery W. Grass for Defendants
and Respondents Peter M. Hoagland and San Diego Cardiac Center Medical
Group, Inc.
No appearance for Respondent.

I
INTRODUCTION
This appeal arises from a medical malpractice action filed by Eduardo
Flores in September 2017 alleging Peter Hoagland, M.D., was negligent in
providing preoperative cardiac consultation and, as a result, Flores suffered
injuries related to a neurosurgical procedure in June 2014. The trial court
sustained without leave to amend a demurrer filed by defendants
Dr. Hoagland and San Diego Cardiac Center Medical Group, Inc. on the basis
that Flores’s action was barred by the three-year statute of limitations set
forth in Code of Civil Procedure section 340.5. The court entered a judgment
of dismissal on May 4, 2018.
Instead of timely appealing the judgment, Flores filed numerous
motions and ex parte applications with the trial court asking the court to
reconsider its demurrer ruling and to accept the filing of a third amended
complaint. Eventually, the court entered an order on December 21, 2018,
declaring Flores to be a vexatious litigant and imposing a pre-filing order
requiring him to obtain leave of court for any future filings. (Code Civ. Proc.,
§§ 391, subd. (b)(2); 397.1, subd. (a).)
Flores filed a notice of appeal from the vexatious litigant order.
However, his opening brief only challenged the merits of the judgment
against him; it did not raise any issue with the prefiling order. Because
Flores did not timely appeal the judgment, we have no jurisdiction to
consider the issues he raises on appeal. Although a prefiling order is
appealable, Flores abandoned any issues related to that order by failing to
properly raise them in his briefs. Therefore, we affirm the order.

2

II
BACKGROUND!
Eduardo Flores filed a medical malpractice action in September 2017
contending Dr. Hoagland misdiagnosed him during pre-operative cardiac
consultation for brain surgery.
According to a second amended complaint, Dr. Hoagland evaluated
Flores in February, March, and April 2014. Dr. Hoagland cleared Flores for
neurosurgery during the April evaluation. Flores alleged, “The neurosurgery
proceeded on June 9, 2014 and the result was disastrous.” He alleged he
experienced respiratory arrest leading to a hemorrhagic stroke requiring
additional surgeries and hospitalization. He alleged he had cognitive
impairments and did not become aware of Dr. Hoagland’s negligence until
November 2016 when he obtained his medical records from the medical group
with which Dr. Hoagland practices, San Diego Cardiac Center.
On May 4, 2018, the court sustained without leave to amend the
demurrer of Dr. Hoagland and San Diego Cardiac Center Medical Group, Inc.
to Flores’s second amended complaint because Flores’s action was barred by
the three-year statute of limitation set forth in Code of Civil Procedure
section 340.5. Quoting Hills i>. Aronsohn (1984) 152 Cal.App.3d 753, 758, the
court explained the three-year statute, “ ‘places an outer limit which

1
The record designated by Flores contains primarily his own pleadings
along with some minute orders and portions of the register of action. We
summarize the pertinent procedural background based on the available
record.
We deny Flores’s motion to correct or augment the record filed June 28,
2019, which purports to disagree with the certified court reporter’s transcript
of the November 20, 2018 and December 21, 2018 proceedings by offering
handwritten comments and edits.
3

terminates all malpractice liability once three years have passed from the
date of injury. The only instances in which belated discovery is relevant to
the three-year limitations period are those which are specified in the statute.
If none of these exceptions apply, the three-year outside limitations period is
commenced regardless of a patient’s belated discovery of [his or] her injury.
[(Id. at p. 761)]’ ” The three-year statute may only be tolled if one can plead
and prove fraud, intentional concealment, or the presence of a foreign body.
(Code Civ. Proc., § 340.5.) The court determined none of those exceptions
applied and Flores’s action was barred by the statute of limitations because
he did not file his action within three years of the injury he sustained on
June 9, 2014.
Having completely disposed of the action, the court entered judgment
in favor of the defendants on May 18, 2018. The defendants filed a notice of
entry of judgment on May 24, 2018.
Over the next six months, Flores filed the following ex parte
applications and motions asking the court to reconsider its prior rulings and
allow him to file a third amended complaint:
• May 30, 2018 ex parte application asking the court to review a
proposed third amended complaint.
• June 18, 2018 motion for reconsideration of the dismissal asking the
court to review a third amended complaint. The court denied the
motion stating it did not have jurisdiction to entertain a
reconsideration motion after entry of the judgment.
• August 3, 2018 motion to set aside the judgment and request for the
court to consider a third amended complaint. The court denied the
motion noting Flores had not provided any argument or evidence to set

4

aside the judgment pursuant to Code of Civil Procedure section 473,
subdivision (b).
• September 19, 2018 ex parte application seeking clarification of the
court’s order denying the motion to set aside the judgment and asking
if the court considered his third amended complaint. The court denied
the application.
• October 29, 2018 ex parte application to file a third amended complaint
stating it was lost and the court should have considered it before ruling
on the demurrer.
• November 16, 2018 ex parte application asking why the court rejected
his third amended complaint.
On November 20, 2018, the court denied Flores’s latest application to
consider a third amended complaint. On its own motion, the court set an
order to show cause hearing regarding why Flores should not be declared a
vexatious litigant pursuant to Code of Civil Procedure section 391,
subdivision (b)(2), for repeatedly relitigating the validity of the determination
in favor of the defendants.
At the order to show cause hearing on December 21, 2018, Flores
continued to argue the merits of his malpractice case and asked the court to
consider his proposed third amended complaint.
The court noted it entered judgment in favor of the defendants in May
2018 and Flores had “asked and re-asked” the court to reconsider its ruling
thereafter. The court each time “explained and re-explained the rationale for
its ruling sustaining [defendants’ [djemurrer and entry of ^judgment.” The
court determined Flores’s repeated applications asking the court to
reconsider its prior rulings had become frivolous. The court issued an order
finding Flores to be a vexatious litigant as defined by Code of Civil Procedure
5

section 391, subdivision (b)(2) and precluding him from filing further papers
in this litigation without leave of court. (Code Civ. Proc, § 391.7, subd. (a).)
Flores filed a notice of appeal on January 8, 2019 appealing the
December 21, 2018 order.
Ill
DISCUSSION
A
Lack of Jurisdiction to Consider Judgment
Flores’s opening brief challenges only the merits of the court’s order
sustaining the defendants’ demurrer to the second amended complaint based
on the statute of limitations. The judgment was entered on May 18, 2018,
and the record reflects a notice of entry of judgment was filed shortly
thereafter. Flores did not timely appeal the judgment, either within 60 days
of the service of the notice of entry of judgment or within 180 days of the
entry of judgment. (Cal. Rules of Court, rule 8.104(a)(1).) Therefore, we are
precluded from reviewing the merits of the demurrer ruling. (Code Civ.
Proc., § 906; Van Beurden Ins. Services, Inc. v. Customized Worldwide
Weather Ins. Agency, Inc. (1997) 15 Cal.4th 51, 56 [“The time for appealing a
judgment is jurisdictional; once the deadline expires, the appellate court has
no power to entertain the appeal.”]; Pfeifer v. John Crane, Inc. (2013) 220
Cal.App.4th 1270, 1315-1316 [U

( u

[i]f a judgment or order is appealable, an

aggrieved party must file a timely appeal or forever lose the opportunity to
obtain appellate review

].)

6

B
Vexatious Litigant Order
An order imposing prefiling requirements against a vexatious litigant
pursuant to Code of Civil Procedure section 391.7 is effectively an injunction
and is, therefore, appealable pursuant to Code of Civil Procedure
section 904.1, subdivision (a)(6). (See Luckett v. Panos (2008) 161
Cal.App.4th 77, 85.) The December 21, 2018 order was such an order and,
therefore, Flores’s appeal was timely as to that order.
“A court exercises its discretion in determining whether a person is a
vexatious litigant. [Citation.] We uphold the court's ruling if it is supported
by substantial evidence. [Citations.] On appeal, we presume the order
declaring a litigant vexatious is correct and imply findings necessary to
support the judgment.” (Bravo v. Ismaj (2002) 99 Cal.App.4th 211, 219.)
Flores abandoned any challenge to the merits of this prefiling order by
failing to raise any such issues in his opening brief. (County of Riverside v.
Public Employment Relations Bd. (2016) 246 Cal.App.4th 20, 27, fn. 4; Behr
v. Redmond (2011) 193 Cal.App.4th 517, 538.) We decline to consider belated
statements in his reply brief contending the court abused its discretion in
entering the order because it did not consider the merits of his case. “We
decline to consider the issue ... in deference to the rule that ‘ “points raised in
the reply brief for the first time will not be considered, unless good reason is
shown for failure to present them before.” ’ ” (Shade Foods, Inc. v. Innovative
Products Sales & Marketing, Inc. (2000) 78 Cal.App.4th 847, 894, fn. 10.)

7

'*r-

—

V

<

-

—

—

<v

?-

%
K

6
J

*

,,6

i1

•i...f

;

f

•

;

-.1

•>

?

?.

■Sr

j-

c

i.

:r

-r

^v.•

■;

v.

•i
. f

i.

*,

r.

v

\

-.V

J

;•

<>

.r

J

!

V*

• v.v

-A

:■

•V
V-:

V
1
r*. ■

-V

v-:

*-v
••

S' ■.
-•i't

t

w

V-

t-

*

* :*

;

i.
•

■>.-

V*r.

•
r'

\

-/

.»•••
.i

Vil'Xlv
v/

&r>
y.

*

* r?

iT
1i

•.T

<

t

s•
-ir-:

*!
Vi

•A

f?.-

/ •.
'.',1

. .<•
4

V

!• •

J

C

■ V

’.1-

4.-. vV.
/r.

y

\

- *;
:v

4V

;

r

\.
Jv;

■,r;

:v>
*v-

S,;

i.~

t.:.-

-

.'V-

f • • fc’.

£•.

*

3
■

IV
DISPOSITION
The order is affirmed. Respondents shall recover their costs on appeal.

McConnell, p. j.
WE CONCUR:
HALLER, J.
IRION, J.
l
:
j
!

KEVIN 3. LANE, Clerk of the Court of Appeal, Fourth
Appellate District, State of California, does hereby Certify
that the preceding is a true and correct copy of the Original
©fthlsdocumem/order/opinion filed in this Court, os shown
by the records of my office.
WITNESS, my hand and the Seal of this Court.
09/30/2020
KEVIN J. LANE. CLERK

tfSft ■..
\s&

8

A . C~,cxSLuj>^>-.
Deputy Clerk

APPENDIX B

COURT OF APPEAL, FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA

Court of Appeal
Fourth Appellate District
FILED ELECTRONICALLY
10/16/2020
Kevin J. Lane, Clerk
By: Alissa Galvez

EDUARDO FLORES,

D075480

Plaintiff and Appellant,
v.

(Super. Ct. No. 37-201700033989-CU-MM-CTL)

PETER M. HOAGLAND et al.,
ORDER DENYING REHEARING
Defendants and Respondents;
THE SUPERIOR COURT OF SAN
DIEGO COUNTY,
Respondent.

THE COURT:
The petition for rehearing is denied.

McConnell, p. j.
Copies to: All parties

ft

APPENDIX C

SUPREME COURT

FILED

Court of Appeal, Fourth Appellate District, Division One - No. D075480

JAN 2 0 2021

Jorge Navarrete Clerk

S265826
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
EDUARDO FLORES, Plaintiff and Appellant,

Court of Appeal
Fourth Appellate District
FILED ELECTRONICALLY

V.

01/25/2021

PETER M. HOAGLAND et al., Defendants and Respondents;
SUPERIOR COURT OF SAN DIEGO COUNTY, Respondent,
The petition for review is denied.

CANTl L- SAKAUYE
ChiefJustice

Kevin J. Lane, Clerk
By: Alissa Galvez

APPENDIX D

j

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO
CENTRAL
MINUTE ORDER
DATE: 05/04/2018
TIME: 09:00:00 AM
JUDICIAL OFFICER PRESIDING: Joel R. Wohlfeil
CLERK: Ryan A Willis
REPORTER/ERM: Not Reported
BAILIFF/COURT ATTENDANT: R. Camberos

DEPT: C-73

CASE NO: 37-2017-00033989-CU-MM-CTL CASE INIT.DATE: 09/14/2017
CASE TITLE: Flores vs Hoagland [IMAGED]
CASE TYPE: Medical Malpractice
CASE CATEGORY: Civil - Unlimited

EVENT TYPE: Demurrer / Motion to Strike
MOVING PARTY: San Diego Cardiac Center Medical Group Inc, Peter M Hoagland MD
CAUSAL DOCUMENT/DATE FILED: Demurrer. 03/29/2018
EVENT TYPE: Civil Case Management Conference

APPEARANCES
Eduardo Flores, self represented Plaintiff, present.
Gabriel M. Benrubi, counsel, present for Defendant(s) telephonically.
Gabriel M. Benrubi, specially appearing for counsel RICHARD V ZAVALA, present for Defendant(s).

Defendant submit(s) on the Court’s tentative ruling.
The Court hears oral argument and confirms the tentative ruling as follows:
The general Demurrer (ROA # 38) of Defendants Peter M. Hoagland, M.D. (erroneously named and
served as Dr. Peter M. Hoagland), and San Diego Cardiac Center Medical Group, Inc. (erroneously
named and served as San Diego Cardiac Center) (collectively "Defendants") to the Second Amended
Complaint ("SAC") of Plaintiff EDUARDO FLORES ("Plaintiff'), on the grounds that the SAC is barred by
the statute of limitations as set forth within Code of Civil Procedure, Section 340.5, is SUSTAINED
without leave to amend.
"In an action for injury or death against a health care provider based upon such person's alleged
professional negligence, the time for the commencement of action shall be three years after the date of
injury or one year after the plaintiff discovers, or through the use of reasonable diligence should have
discovered, the injury, whichever occurs first. In no event shall the time for commencement of legal
action exceed three years unless tolled for any of the following: (1) upon proof of fraud, (2) intentional
concealment, or (3) the presence of a foreign body, which has no therapeutic or diagnostic purpose or

DATE: 05/04/2018
DEPT: C-73

MINUTE ORDER

Page 1
Calendar No. 11

CASE TITLE: Flores vs Hoagland [IMAGED]

CASE NO: 37-2017-00033989-CU-MM-CTL

effect, in the person of the injured person." Code Civ. Proc. 340.5. "...[S]ection 340.5 establishes two
hurdles, not one, to the timely maintenance of a medical malpractice claim. Thus, if a malpractice litigant
brings her action within three years from the date of injury, she must still satisfy the one-year limitations
period or the action is time barred. Conversely, if the action is properly brought within one year of
reasonable discovery, the action is nevertheless barred if the three-year period is not also satisfied."
Hills v. Aronsohn (1984) 152 Cal. App. 3d 753, 758. ”...[S]ection 340.5 now places an outer limit which
terminates all malpractice liability once three years have passed from the date of injury. The only
instances in which belated discovery is relevant to the three-year limitations period are those which are
specified in the statute. If none of these exceptions apply, the three-year outside limitations period is
commenced regardless of a patient’s belated discovery of her injury." id- at 761.
As alleged, "Dr. Hoagland evaluated Plaintiff on February 28, 2014 and March 19, 2014." SAC at 10.
Also, "Dr. Hoagland followed up with a very different report on April 25, 2014." SAC at U 11. "The
neurosurgery proceeded on June 9, 2014 and the result was disastrous." SAC at U 12. This surgery
caused immediate injuries and resulted in several follow-up procedures. li. Paragraph 13 alleges:
"Plaintiff has continued to struggle with the cognitive impairments caused by the surgery through 2014,
2015 and 2016 and continues to be impaired to date. He lost his sense of time and did not become
aware of - nor could he have become aware of - the malpractice until November 15, 2016 when he went
to San Diego Cardiac Center to get his medical records from defendants." This was the date on which
Plaintiff first discovered the negligent evaluation and reports from 2014. SAC at
13 and 15. These
acts from 2014 constitute professional negligence. SAC at 16.
As alleged, the date of injury occurred on June 9, 2014. This action was filed on September 14, 2017,
more than three years later. As a result, this action is barred as a matter of law by the "outer limit" of
section 340.5. The only way to escape this outer limit is to plead and prove (1) fraud, (2) intentional
concealment, or (3) the presence of a foreign body. None of these exceptions are alleged. This Court’s
ruling on the previous Demurrer (ROA # 23) was sustained on the same basis. The prior ruling
expressly referenced the need to plead facts demonstrating fraud or intentional concealment. The
amended pleading does not allege these facts, and on this basis leave to amend is not permitted.
This ruling completely disposes of this action and Defendants are entitled to a judgment in their favor.
Civil Case Management Conference
Civil Case Management Conference is vacated in light of the above Court ruling.

Judge Joel R. Wohlfeil

DATE: 05/04/2018
DEPT: C-73

MINUTE ORDER

Page 2
Calendar No. 11

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO
CENTRAL
MINUTE ORDER
DATE: 12/21/2018

TIME: 10:45:00 AM
JUDICIAL OFFICER PRESIDING: Joel R. Wohlfeil
CLERK: Andrea Taylor
REPORTER/ERM: Gabriel Hernandez
BAILIFF/COURT ATTENDANT: R. Camberos

DEPT: C-73

CASE NO: 37-2017-00033989-CU-MM-CTL CASE INIT.DATE: 09/14/2017
CASE TITLE: Flores vs Hoagland [IMAGED]
CASE TYPE: Medical Malpractice
CASE CATEGORY: Civil - Unlimited

EVENT TYPE: Motion Hearing (Civil)
MOVING PARTY: San Diego Cardiac Center Medical Group Inc, Peter M Hoagland MD
CAUSAL DOCUMENT/DATE FILED: Declaration - Other, 11/19/2018
EVENT TYPE: OSC - Sanctions

APPEARANCES
Eduardo Flores, self represented Plaintiff, present.
RICHARD V ZAVALA, counsel, present for Defendant(s) telephonically.
Plaintiffs request to speak in both English and Spanish when convenient is granted in part. Plaintiff
wants to speak in English and use Interpreter if he needed.
Certified Spanish interpreter Maria Flores No. 36605781 is sworn to interpret on behalf of Plaintiff if so
requested.
The order to show cause ("OSC") why Plaintiff EDUARDO FLORES ("Plaintiff') should not be declared a
vexatious litigant and why sanctions should not be imposed against Plaintiff, is GRANTED IN PART and
DENIED IN PART.
At the hearing of Plaintiffs latest ex parte application on November 20, 2018 (ROA # 108, 109), the
Court, on its own motion, set "an order to show cause why Plaintiff should not be declared a vexatious
litigant for repeatedly litigating after the matter was heard ... (and) why sanctions should not be imposed
against (Plaintiff) pursuant to CCP 177.5 and / or 575.2" on 12/21/18 at 10:45 a.m. in Department 73."
At the hearing, counsel for Defendants Peter M. Hoagland, M.D. and San Diego Cardiac Center Medical
Group, Inc. ("Defendants") represented that Defendants had calendared a "request for monetary
sanctions is set on 12/21/18 at 10:45 a.m. in Department 73." In reviewing the Court's file, the Court
notes that Defendant calendared the hearing - ROA # 106 - but does not appear to have filed any
papers. Accordingly, Defendant's Motion is OFF CALENDAR.

DATE: 12/21/2018
DEPT: C-73

MINUTE ORDER

Page 1
Calendar No. 9

CASEJITLE: Flores vs Hoagland [IMAGED]

CASE NO: 37-2017-00033989-CU-MM-CTL

CCP 391(b)(2) states, in pertinent part:
"As used in this title, the following terms have the following meanings:(a) "Litigation" means any civil
action or proceeding, commenced, maintained or pending in any state or federal court, (b) "Vexatious
litigant" means a person who does any of the following: ... (2) After a litigation has been finally
determined against the person, repeatedly re-litigates or attempts to re-litigate, in propria persona, either
(i) the validity of the determination against the same defendant or defendants as to whom the litigation
was finally determined or (ii) the cause of action, claim, controversy, or any of the issues of fact or law,
determined or concluded by the final determination against the same defendant or defendants as to
whom the litigation was finally determined."
On May 18, 2018, the Court entered Judgment in favor of Defendants and against Plaintiff after
sustaining, without leave to amend, Defendants' Demurrer to Plaintiffs Second Amended Complaint
("SAC"). ROA # 54, 55. The Court did so, albeit reluctantly, after making reasonable, if not generous,
efforts to accommodate the pro per Plaintiff. Ultimately, the Court was persuaded that, to further.,
accommodate Plaintiff, may be generously fair to Plaintiff, but would be unreasonably and unduly
arbitrary and unfair to Defendants. Since entry of Judgment, Plaintiff has asked and re-asked the Court
to reconsider its ruling on no less than five times. ROA # 61, 77, 85, 98 and 102. Each time, the Court
has explained and re-explained the rationale for its ruling sustaining Defendants' Demurrer and entry of
Judgment. Defendants have undoubtedly incurred considerable expense in opposing Plaintiffs multiple
applications. It has become apparent, from the Court's perspective, that no amount of judicial resources,
much less patience and reasoning on the part of the Court, will dissuade Plaintiff from accepting the trial
court's decision and pursuing appellate recourse if Plaintiff wishes to do so. At some point, Plaintiffs
refusal to accept the process must yield to the unnecessary consumption of judicial resources and
Defendants' expense. That time has come. Plaintiffs repeated applications asking the Court to
reconsider its prior ruling have become frivolous. Accordingly, the Court finds that Plaintiff is a vexatious
litigant and will be prevented from filing further papers in this litigation at the trial court, without first
obtaining leave of Court.
IT IS SO ORDERED.

Judge Joel R. Wohlfeil

DATE: 12/21/2018
DEPT: C-73

MINUTE ORDER

Page 2
Calendar No. 9

1

ZJ
i

t'- ■

V
I

i

APPENDIX E

California Rules of Court

4/17/21, 10:42 AM

Print this page

California Rules of Court

Close this window when you
finish printing

(Revised January 1,2021)
Rule 1.100. Requests for accommodations by persons with disabilities
(a) Definitions
As used in this rule:
(1) "Persons with disabilities" means individuals covered by California Civil Code section 51 et seq.; the
Americans With Disabilities Act of 1990 (42 U.S.C. §12101 et seq.); or other applicable state and federal
laws. This definition includes persons who have a physical or mental medical condition that limits one or
more of the major life activities, have a record of such a condition, or are regarded as having such a
condition.
(2) "Applicant" means any lawyer, party, witness, juror, or other person with an interest in attending any
proceeding before any court of this state.
(3) "Accommodations" means actions that result in court services, programs, or activities being readily
accessible to and usable by persons with disabilities. Accommodations may include making reasonable
modifications in policies, practices, and procedures; furnishing, at no charge, to persons with disabilities,
auxiliary aids and services, equipment, devices, materials in alternative formats, readers, or certified
interpreters for persons who are deaf or hard-of-hearing; relocating services or programs to accessible
facilities; or providing services at alternative sites. Although not required where other actions are effective
in providing access to court services, programs, or activities, alteration of existing facilities by the
responsible entity may be an accommodation.
(Subd (a) amended effective July 1, 2017; adopted as subd (b) effective January 1, 1996; previously amended effective
January 1, 2006, amended and relettered effective January 1, 2007.)
(b) Policy
It is the policy of the courts of this state to ensure that persons with disabilities have equal and full access to the
judicial system. To ensure access to the courts for persons with disabilities, each superior and appellate court
must delegate at least one person to be the ADA coordinator, also known as the access coordinator, or designee
to address requests for accommodations. This rule is not intended to impose limitations or to invalidate the
remedies, rights, and procedures accorded to persons with disabilities under state or federal law.
(Subd (b) adopted effective January 1, 2007.)
(c) Process for requesting accommodations
The process for requesting accommodations is as follows:

https://www.courts.ca.gov/cms/rules/printfriendly.cfm

Page 1 of 4

California Rules of Court

4/17/21, 10:42 AM

(1) Requests for accommodations under this rule may be presented ex parte on a form approved by the
Judicial Council, in another written format, or orally. Requests must be forwarded to the ADA coordinator,
also known as the access coordinator, or designee, within the time frame provided in (c)(3).
(2) Requests for accommodations must include a description of the accommodation sought, along with a
statement of the medical condition that necessitates the accommodation. The court, in its discretion, may
require the applicant to provide additional information about the medical condition.
(3) Requests for accommodations must be made as far in advance as possible, and in any event must be
made no fewer than 5 court days before the requested implementation date. The court may, in its
discretion, waive this requirement.
(4) The court must keep confidential all information of the applicant concerning the request for
accommodation, unless confidentiality is waived in writing by the applicant or disclosure is required by law.
The applicant’s identity and confidential information may not be disclosed to the public or to persons other
than those involved in the accommodation process. Confidential information includes all medical
information pertaining to the applicant, and all oral or written communication from the applicant concerning
the request for accommodation.
(Subd (c) amended effective July 1, 2017; previously amended effective January 1, 2006, and January 1, 2007.)
(d) Permitted communication
Communications under this rule must address only the accommodation requested by the applicant and must not
address, in any manner, the subject matter or merits of the proceedings before the court.
(Subd (d) amended effective January 1, 2006.)
(e) Response to accommodation request
The court must respond to a request for accommodation as follows:
(1) In determining whether to grant an accommodation request or provide an appropriate alternative
accommodation, the court must consider, but is not limited by, California Civil Code section 51 et seq., the
provisions of the Americans With Disabilities Act of 1990 (42 U.S.C. § 12101, et seq.), and other
applicable state and federal laws.
(2) The court must promptly inform the applicant of the determination to grant or deny an accommodation
request. If the accommodation request is denied in whole or in part, the response must be in writing. On
request of the applicant, the court may also provide an additional response in an alternative format. The
response to the applicant must indicate:
(A) Whether the request for accommodation is granted or denied, in whole or in part, or an alternative
accommodation is granted;
(B) If the request for accommodation is denied, in whole or in part, the reason therefor;
(C) The nature of any accommodation to be provided;
(D) The duration of any accommodation to be provided; and

https://www.courts.ca.gov/cms/rules/printfriendly.cfm

Page 2 of 4

California Rules of Court

4/17/21, 10:42 AM

(E) If the response is in writing, the date the response was delivered in person or sent to the applicant.
(Subd (e) amended effective January 1, 2010; previously amended effective January 1, 2006, and January 1, 2007.)
(f) Denial of accommodation request
A request for accommodation may be denied only when the court determines that:
(1) The applicant has failed to satisfy the requirements of this rule;
(2) The requested accommodation would create an undue financial or administrative burden on the court; or
(3) The requested accommodation would fundamentally alter the nature of the service, program, or activity.
(Subd (f) amended effective January 1, 2007; previously amended effective January 1, 2006.)
(g) Review procedure

(1) If the determination to grant or deny a request for accommodation is made by nonjudicial court personnel
an applicant or any participant in the proceeding may submit a written request for review of that
determination to the presiding judge or designated judicial officer. The request for review must be
submitted within 10 days of the date the response under (e)(2) was delivered in person or sent.
(2) If the determination to grant or deny a request for accommodation is made by a presiding judge or another
judicial officer, an applicant or any participant in the proceeding may file a petition for a writ of mandate
under rules 8.485-8.493 or 8.930-8.936 in the appropriate reviewing court. The petition must be filed within
10 days of the date the response under (e)(2) was delivered in person or sent to the petitioner. For
purposes of this rule, only those participants in the proceeding who were notified by the court of the
determination to grant or deny the request for accommodation are-considered real parties in interest in a
writ proceeding. The petition for the writ must be served on the respondent court and any real party in
interest as defined in this rule.
(3) The confidentiality of all information of the applicant concerning the request for accommodation and review
under (g)(1) or (2) must be maintained as required under (c)(4).
(Subd (g) amended effective January 1, 2010; previously amended effective January 1, 2006.)
(h) Duration of accommodations
The accommodation by the court must be provided for the duration indicated in the response to the request for
accommodation and must remain in effect for the period specified. The court may provide an accommodation for
an indefinite period of time, for a limited period of time, or for a particular matter or appearance.
(Subd (h) amended effective January 1, 2006.)
Rule 1.100 amended effective July 1, 2017; adopted as rule 989.3 effective January 1, 1996; previously amended effective
January 1, 2006; previously amended and renumbered effective January 1, 2007; previously amended January 1, 2010.
Advisory Committee Comment
Subdivision (g)(2). Which court is the "appropriate reviewing court" under this rule depends on the court in which the accommodation
decision is made and the nature of the underlying case. If the accommodation decision is made by a superior court judicial officer and
the underlying case is a limited civil, misdemeanor, or infraction case, the appropriate reviewing court is the appellate division of the

https://www.courts.ca.gov/cms/rules/printfriendly.cfm

Page 3 of 4

1

No.

IN THE
SUPREME COURT OF THE UNITED STATES

ott-fe f _ _ PETITIONER
(Your Name)
VS.
/-/0/Vftt t AN)?1

— RESPONDENT(S)

PROOF OF SERVICE
cl <*.

\ pn. gs
do swear or declare that on this date,
tt I
,
20
AL,
as
required
by Supreme Court Rule 29 I have
LI
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:

to th*
&

ClgRK
st&les

SuPg-gNfte Cookie

oP-

tU e

{/f/aSUiXjaJ'Did____________________

< fraztsl N£ (4/a * Ultimo

nc 2-Q6U-Z

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

\ !

L%

, 20JL1
/Zee*
(Signature)

\ o ?

^

5*

%

*

i

A

V

. Ho pr&rVM-N D . ei-^

COO&T OF Cfrh'FoFAff'fi
J) ^0pP<VA5
3£<o MCAllisff^ sfrze<?-f
ca iiirioa-Wfch l‘eF

S os/l CP

C KX/ + I

A Cotxrr or FP?^l

I -Sa Kau

froOXL-*M

ye

AfP<?)(lo-Tf

pisYlZiC

T^o g &h<?e+ s^'+e 30 0
c« v
£>(<?&(?
P’fc-eSibiM i05^1C^

3

<°\y* i»\

(p

M C C<P1V/ <? /f

^>^P€t2_/oa Couv^T OK Cl4/.(POfiA^M CQUbl+y OF
t-f'fa-U oF i^/|ce £JO
B&OtA-O (A^fty
t^CrCro 0\A
<? 2r I G l
J "Os- HObA. Joel fc. M/oh/FeU

4

E>bbji ‘s
S'! os

i^izi^s.s/ &-o} p+mM
p/K> l
»1
se-Do A/tf COO&+°N Fto-\Z\& CM-/.I FOV Mf'(K

i*bzx> v/

5

50S&M 0

j/fv Gf

P-o- 6<»i5 lA'M

l^ol ^ g
QtS'Crov

W

A44" /*v CHM *?A.aTT

*f3-ll^

0^/d<\jf Jo3-(5
P*S e d-

<9l

